     Department of Homeland Security

     ��������������������������


  Independent Review of U.S. Customs and Border 

   Protection's Reporting of FY 2013 Drug Control 

           Performance Summary Report 





OIG-14-40                               February 2014

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov


   
                                             FEB 14 2014 
 
MEMORANDUM FOR:	             Eugene H. Schied 
                             Assistant Commissioner 
                             U.S. Customs and Border Protection 
 
FROM:	                       Mark Bell 
                             Acting Assistant Inspector General for Audits 
 
SUBJECT:	                    Independent Review of U.S. Customs and Border 
                             Protection’s Reporting of FY 2013 Drug Control 
                             Performance Summary Report 
   
Attached for your information is our final report, Independent Review of U.S. Customs 
and Border Protection’s Reporting of FY 2013 Drug Control Performance Summary 
Report. U.S. Customs and Border Protection’s management prepared the Performance 
Summary Report to comply with the requirements of the Office of National Drug Control 
Policy Circular, Accounting of Drug Control Funding and Performance Summary, dated 
January 18, 2013.   
 
We contracted with the independent public accounting firm KPMG LLP to perform the 
review. KPMG LLP is responsible for the attached independent accountants’ report, 
dated February 10, 2014, and the conclusions expressed in it. We do not express an 
opinion on the Performance Summary Report. This report contains no 
recommendations.  
 
Consistent with our responsibility under the Inspector General Act, we will provide 
copies of our report to appropriate congressional committees with oversight and 
appropriation responsibility over the Department of Homeland Security. We will post 
the report on our website for public dissemination. 
          
Please call me with any questions, or your staff may contact Sandra John, Acting Deputy 
Assistant Inspector General for Audits, at (202) 254‐4100.   
 
Attachment                                  




 
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                     Independent Accountants’ Report


Deputy Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Performance Summary Report of the U.S. Department of Homeland
Security’s (DHS) Customs and Border Protection (CBP) for the year ended September 30, 2013. CBP’s
management is responsible for the Performance Summary Report.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Performance Summary Report.
Accordingly, we do not express such an opinion.

Management of CBP prepared the Performance Summary Report to comply with the requirements of the
Office of National Drug Control Policy (ONDCP) Circular, Accounting of Drug Control Funding and
Performance Summary, dated January 18, 2013 (the Circular).

Based on our review, except as noted below, nothing came to our attention that caused us to believe that
the Performance Summary Report for the year ended September 30, 2013, referred to above, is not fairly
stated, in all material respects, in conformity with the criteria set forth in the Circular.

The Performance Summary Report for the year ended September 30, 2013, referred to above, does not
include a performance measure for the Automation Modernization Drug Control Budget Decision Unit
identified in the Detailed Accounting Submission for the year ended September 30, 2013, as required by
section 7b(4) of the Circular.

This report is intended solely for the information and use of management of DHS and CBP, the DHS
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




February 10, 2014




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                                                                      1300 Pennsylvania Avenue NW
                                                                      Washjngton , DC 20229



                                                                      U.S. Customs and
                                                                      Border Protection
    FEB 10 2014


MEMORANDUM FOR:              Ms . Anne L. Richards
                             Assistant Inspector General for Audit
                             Department of Homeland Security

FROM:                        Deborah J. Schilling
                             Chief Financial Officer and Deputy Assistant Commissioner,
                             Office of Administration
                             US Customs and Border Protection

SUBJECT:                     Management's Assertions for U.S. Customs and Border
                             Protection's Petformance Summary Report to ONDCP

In compliance with the Office of National Drug Control Policy (ONDCP) Circular, Accounting of
Drug Control Funding and Pe1jormance SummaJy, dated January 18, 2013, U.S. C ustoms and
Border Protection (CBP) submits its Performance Summary Report to ONDCP. The report
contains the results ofCBP's fiscal year (FY) 2013 performance in support ofthe National Drug
Control Strategy.

CBP makes the following assertions:

   (1) Performance reporting system is appropriate and applied- CBP has a system to capture
       performance information accurately and the system was properly applied to generate the
       performance data;

           (a) The source of the data for the perfom1ance measure- Amount ofCuiTency Seized
               on Exit from the United States, is obtained from TECS (Drug Control Decision
               Unit - Salaries and Expenses);

          (b) The source of the data for the performance measure - Percentage of Joint
              Interagency Task Force - South Annual M ission Hour objective achieved is T ECS
              (Drug Control Decision Unit - Air and Marine Operations); and

          (c) The source of the data for the performance measure, Number of Apprehensions on
              the Southwest Border Between the Ports of Entry is the e3 Processing Database
              (Drug Control Decision Unit - Border Security Fencing, Infrastructure and
              Technology).

   (2) All but one of the performance targets in FY 2013 were met, an explanation for the
       missed target for 'N umber of Apprehensions on the Southwest Border Between the Ports
       of Entry' is provided in Perfonnance Summary Rep011, and the explanation for rep lacing
       the "Number of Apprehensions" measure with the measure, "Rate of interdiction
       effectiveness along the Southwest Border between ports of entry" is provided;
Management's Assertions for U.S. Customs and Border Protection's Drug Seizure Data
Page 2

   (3) Methodology to establish performance targets is reasonable and consistently applied.
       Professional judgement was used in establishing performance measure targets based on
       subject matter experts with several years of experience in the field; and

   (4) Adequate performance measures exist for a significant portion of drug control activities.
       However, CBP has not established at least one acceptable performance measure for each
       Drug Control Decision Unit identified in reports. Each existing performance measure
       considers the intended purpose of the National Drug Control Progran1 Activity.

To address any questions you have regarding this submission, please contact me at
(202) 344-2300, or a member of your staff may contact Mr. James McNally, Director, Investment
Analysis Office, at (202) 344-1651.




Deborah J. Schilling
                        U.S. Department of Homeland Security

                         U.S. Customs and Border Protection

                            Performance Summary Report

                                Fiscal Year (FY) 2013


The performance measures presented below directly link to the 2013 National Drug
Control Strategy by evaluating U.S. Customs and Border Protection (CBP) success in
disrupting domestic drug trafficking. This Performance Summary Report (PSR) contains
the performance measure aligned to drug control decision units as required by the Office
of National Drug Control Policy (ONDCP) Circular, Accounting of Drug Control
Funding and Performance Summary, dated January 18, 2013. The drug control decision
units are as follows: (1) Salaries and Expenses, (2) Air and Marine Operations, (3)
Automation Modernization, and (4) Border Security Fence, Infrastructure and
Technology. Based on this PSR, the attached Management Assertions letter states that
(1) the performance reporting system is appropriate and applied, (2) performance targets
in FY 2013 were either met or an explanation for not meeting targets is included, (3) the
methodology used to establish performance targets is reasonable and applied, and (4)
adequate performance measures exist for all significant drug control activities although
only three of the decision units have specifically associated measures.

Drug Control Decision Unit – Salaries and Expenses

Performance Measure – Office of Field Operations – Amount of currency seized on
exit from the United States.

(1) Performance Measures

The performance measure “Amount of currency seized on exit from the United States”
provides the total dollar amount of all currency, in millions, seized during outbound
inspection of exiting passengers and vehicles, both privately-owned and commercial. The
scope of this measure covers all ports of entry on both the southwest and northern borders
and includes all modes of transportation (land, air, and sea). This measure assists in
evaluating CBP’s success in disrupting domestic drug trafficking at the land border ports
of entry, a key outcome for the National Drug Control Strategy.

Since this measure is based upon the seizure-related enforcement outcomes of CBP’s
Outbound enforcement program, the measure provides an indicator of the success that
CBP has in disrupting domestic drug trafficking at the land borders by stemming the flow
of potential narcotics-related proceeds destined to criminal or transnational groups.

The CBP Office of Field Operations (OFO) conducts risk-based Outbound operations at
land and air border ports of entry, enabling CBP to enforce U.S. laws and regulations
applying to the Outbound arena, including, but not limited to, immigration and drug laws.
The Outbound enforcement program is part of CBP’s effort to effectively monitor and
control the flow of goods and people leaving the United States. The goal of CBP’s
Outbound enforcement program is to keep the United States safe by preventing the illicit
export of goods- ranging from firearms to components of weapons of mass destruction-
by individuals seeking to circumvent U.S. export control laws, recognizing that such
goods could potentially fall into the hands of terrorists or criminal elements. The program
also seeks to disrupt criminal elements and terrorist organizations by interdicting their
proceeds and arresting members of their organizations.

A number of presidential strategies, including the President’s National Export Initiative,
the President’s Export Control Reform Initiative, the National Drug Control Strategy, and
the National Southwest Border Counter Narcotics Strategy, designate outbound
enforcement as a crucial component on the war on drugs. The total currency seized upon
exit from the United States in FY2013, which was in excess of $36.9 million, is an
indicator of CBP’s success in disrupting domestic drug trafficking at the borders. These
seizures of currency were potentially destined for criminal or transnational groups.

(2) Prior Years Performance Targets and Results

Fiscal Year: FY 2009        FY2010        FY2011       FY 2012       FY2013
Target:      None           None          $40.0M       $35.0M        $30.0M
Actual:      $58.1M         $47.37M       $47.3M        $31.9M        $36.9M

Overall, since CBP instituted its risk-based Outbound enforcement strategy in FY 2009
and increased the overall level of Outbound enforcement activities, CBP has seen a
decrease in currency seizures both in terms of absolute number of seizures and the
average amount seized. The total amount seized at the ports of entry in FY 2013
increased over the level observed in FY 2012; this was due to a number of larger seizures
that were the result of special operations set up in support of collaborative enforcement
efforts with the Drug Enforcement Agency (DEA) and Immigration and Customs
Enforcement (ICE) through Operation Toll Road, as well as working with other law
enforcement agencies though the Border Enforcement Security Task Force (BEST).

(3) Current Year Performance Targets

Fiscal Year: FY 2014
Target:      $30.0M

Currently, CBP conducts limited Outbound enforcement operations, examining only
departing goods and travelers identified as high-risk, based on CBP Officer assessment at
the ports and/or automated systems alerts triggered by available data. Based upon this
limited operational strategy and the deterrence effect associated with a new program (as
described above), such operations should result in a decrease in the amount of currency
seized as an expected outcome. Therefore, the performance target for FY 2014 is set at
$30.0M. If Outbound enforcement operations are maintained at the same level in FY
2014 and beyond, the expectation is that there will be additional deterrence effects upon
illegal activities and that the target will be maintained at $30.0M for FY 2015 and
subsequent years.
(4) Quality of Performance Data

The data underlying this measure is accurate, complete and unbiased. This measure is
calculated from Outbound seizure-related enforcement action data entered into TECS (a
computer-based tool used support CBP in its mission) by the CBP Officer at the time of
occurrence of the violation. On a monthly basis, the summary data is compiled and
extracted into the Operations Management Report (OMR) module in Border Stat, the
CBP system of record for capturing and reporting on all enforcement and operational
statistical data across its operational components. The monthly summary data is reviewed
by OFO’s Outbound Program Manager to verify accuracy and identify anomalies.
Drug Control Decision Unit – Air and Marine Operations

Performance Measure – Office of Air and Marine – Percentage of Joint Interagency
Task Force-South (JIATF-S) annual mission hour objective achieved.

(1) Performance Measures

The Office of Air and Marine (OAM) conducts extended border operations to support a
layered approach to homeland security. OAM applies assets in the source and transit
zones through coordinated liaison with other U.S. agencies and international partners.
The National Interdiction Command and Control Plan (NICCP) sets the overarching
operational architecture for organizations involved in interdicting illicit drugs in keeping
with the goals and objectives of the National Drug Control Strategy. OAM coordinates
with the larger law enforcement and interdiction community through its partnership with
Joint Interagency Task Force-South. JIATF-S is the tasking coordinator and controller
for counter-drug missions within the transit and source zones. JIATF-S submits its
resource allocation requirements through the NICCP. The Department of Homeland
Security (DHS) responds to the requirements in a Statement of Intent. OAM typically
supports JIATF-S requests with P-3 Airborne Early Warning (AEW) and P-3 Long-
Range Tracker (LRT) aircraft but has also supported JIATF-S with other aircraft,
including its DHC-8 and C12M fixed-wing, medium-range aircraft, Black Hawk rotary-
wing aircraft, and unmanned aircraft systems (UAS).

As a result of the August 19, 2003, Presidential Determination Regarding U.S. Assistance
to the Government of Colombia Airbridge Denial Program, OAM began receiving
funding in FY 2005 to support JIATF-S as part of its base budget.

The performance measure “Percentage of Joint Interagency Task-Force South Annual
Mission Hour Objective” identifies the degree to which OAM meets its intended flight
hours for JIATF-S in support of the National Drug Control Strategy.

(2) Prior Years Performance Targets and Results

The Percentage of JIATF-S Annual Mission Hour Objective Achieved was initially
introduced as a measure in FY 2011.

Fiscal Year: FY 2009         FY2010        FY2011       FY 2012        FY2013
Target:      None            None          100%          100%          100%
Actual:      None            None          100%          100%          100%

While the performance measure was new in FY 2011, OAM did track actual flight hours
flown in support of JIATF-S in prior fiscal years. The actual flight hours for FY 2009
and FY 2010 are available, but a percentage cannot be provided for those years since the
performance measure did not exist and there was no target for calculating the percentage.
In the NICCP, dated March 17, 2010, JIATF-S forecasted its FY 2011 support
requirements for a range of aircraft. In its annual Statement of Intent, DHS responds to
the requirements in the NICCP. The FY 2013 DHS Statement of Intent included CBP’s
objective to provide 5,000 flight hours for detection and monitoring activities with P-3
AEW and P-3 LRT aircraft in support of JIATF-S operations. OAM exceeded the goal of
5,000 hours for FY 2013, flying a total of 6,200.1 hours with its P-3 (6,043.7 hours),
UAS (116.3 hours), DHC-8 (35.8 hours), and AS-350 (4.3 hours) aircraft.

(3) Current Year Performance Targets

Fiscal Year: 2014
Target:      Provide 100 percent of the 5,050 hours of JIATF-S support budgeted for
             the transit zone.

On October 29, 2013, OAM submitted its input for the FY 2014 DHS Statement of Intent
to the DHS Office of Policy, via the Homeland Secured Data Network. This input was
based on current anticipated budgets and planning estimates involving maritime patrol
aircraft flight hours in the transit zone.

The FY 2014 DHS Statement of Intent included CBP’s objective to provide 5,050 flight
hours for JIATF-S with its P-3 and UAS.

(4) Quality of Performance Data

The data underlying this measure is accurate, complete and unbiased. OAM P-3 flight
data is recorded using a Post Flight Record Form (CBPAVP-051-2 RI 26 July 2004).
The flight data entry is then validated against the Computerized Aircraft Reporting and
Material Control (CARMAC) System, which is utilized by aircraft maintenance
personnel to track flight time accrued on the aircraft. The flight data is then checked
monthly against the Air and Marine Operations Report (AMOR) module of the TECS
system, as well as the Tasking, Operations, and Management Information System
(TOMIS).
Drug Control Decision Unit – Automation Modernization

Performance Measure – No performance measure is currently associated with this drug
control decision unit.
Drug Control Decision Unit – Border Security Fencing, Infrastructure and
Technology

Performance Measure – Office of Border Patrol - Number of apprehensions on the
Southwest Border between the ports of entry.

(1) Performance Measures

The Office of Border Patrol, (OBP), works to mitigate all threats – terrorists and weapons
of terrorism, smuggling of narcotics, other contraband and people, and the illegal entry of
people at the border. Border Patrol agents prepare for, detect, and intercept any and all
combinations of these threats that present themselves along the borders. The
enforcement advantage gained from fencing, other infrastructure, and technology, such as
sensors and cameras, allows agents to more effectively and efficiently perform their
duties to detect, identify, and intercept threats.

The measure “Number of apprehensions on the Southwest Border between the ports of
entry” assists in gauging CBP’s success in addressing areas of greatest risk, including
areas that experience narcotics smuggling, along our Nation’s borders. The measure
targets an overall reduction in the number of apprehensions along the Southwest border
from historic levels. Although many factors, including enforcement, the economy, and
natural disasters, can contribute to the ebbs and flows of apprehensions, a key change in
CBP’s enforcement posture over the past several years since 9/11 has been a healthy
build-up in resources and capabilities, including fencing, infrastructure and technology.
This vastly improved enforcement posture has coincided with an overall decrease in
apprehensions since 2005. Funds and resources provided in 2010 created an even
stronger enforcement environment for 2011, as noted in the 2011 National Drug Control
Strategy.

Decreases in apprehensions from the high numbers in 2005 (1,171,396 apprehensions in
2005 versus 414,397 in FY13) has resulted in less illegal alien volume across the border,
allowing agents to devote more time to other law enforcement efforts and techniques,
including the detection and interdiction of narcotics. The Border Patrol strives to keep
apprehensions at low levels, to allow for better mitigation of other threats, such as the
entry of illegal drugs into our country. During FY13, the Border Patrol seized 2,428,419
pounds of marijuana along the Southwest border, more than double the 1,194,427 pounds
seized in 2005 along the Southwest border.

(2) Prior Years Performance Targets and Results

This performance measure was initially introduced as a DHS strategic measure in FY
2011.

Fiscal Year: FY 2009        FY2010        FY2011     FY 2012    FY2013
Target:      None           None          < =390,000 < =371,000 < =391,000
Actual:      540,865         447,731         327,577    356,873    414,397
CBP failed to meet the target for this performance measure. The Border Patrol made
414,397 apprehensions on the Southwest border between ports of entry in FY13. This
remains low compared with 2005 when there were 1,171,396 apprehensions on the
Southwest border, but represents an increase of 16% over FY12. A combination of
factors influenced the rise, including improvement in the U.S. economy, an increase in
attempts by persons from countries other than Mexico due to U.S./foreign economic
factors and emigration/immigration dynamics from sending/transit countries, and
possible change in attempts due to perceptions surrounding immigration reform
legislation. This measure was introduced in FY10 to gauge short-term impacts of
enforcement improvements in Arizona, where apprehensions had been high: the
improvements in enforcement posture did indeed correlate with decreases in
apprehensions at that time. Due to its short-term focus, however, OBP will retire this
measure in FY13, in favor of a new measure for FY14, the Interdiction Effectiveness
Rate, which evaluates the Border Patrol’s ability to apprehend or turn back would-be
illegal entrants.

(3) Current Year Performance Targets

Fiscal Year: FY 2014
Target:      New measure: Interdiction Effectiveness rate: target ≥ 77 percent

As the Border Patrol transitions away from targeting the number of apprehensions on the
Southwest border, it is focusing instead on the percentage of known entries that are
apprehended or turned back to Mexico. The proposed new measure is called, “Rate of
interdiction effectiveness along the Southwest Border between ports of entry”, or the
Interdiction Effectiveness rate. The Border Patrol achieves this desired strategic outcome
by maximizing the apprehension of detected illegal entrants or confirming that illegal
entrants return to the country from which they entered and by minimizing the number of
persons who evade apprehension and can no longer be pursued. CBP will work with
ONDCP to replace the current measure with this new performance measure and target.

(5) Quality of Performance Data

Results for the measure “Number of apprehensions on the Southwest Border between the
ports of entry” include all apprehensions of deportable illegal aliens made by the Border
Patrol within the nine sectors of the Southwest border. Apprehension data is entered into
a database, the e3 (Enforce, next generation) Processing application, by Border Patrol
Agents at the station level. All data entered via e3 resides in the Enforcement Integrated
Database (EID) system, the official system of record for this data. Data input can be
made by the apprehending agent, or by another agent who obtains details concerning the
apprehension from the apprehending agent. All apprehension data entered into e3
Processing is subject to review by supervisors at multiple levels. Data reliability tools are
built into the system. For example, data input not conforming to appropriate expectations
for each cell is flagged for re-entry. The EID continuously updates to compile all
apprehension data. At the Headquarters level, the Statistics and Data Integrity Unit
conducts monthly Data Quality reports as well as weekly miscellaneous checks. When
discrepancies are found, they are referred back to the apprehending Sector/Station for
review and correction.

Targets and results for the “Rate of interdiction effectiveness along the Southwest Border
between ports of entry” measure are based on data collected on all apprehensions,
“turnbacks”, and “gotaways”. Apprehensions are defined as, “a deportable subject who,
after making an illegal entry, is taken into custody and receives a consequence.”
“Gotaways” are defined as, “A subject who, after making an illegal entry, is not turned
back or apprehended and is no longer being actively pursued by Border Patrol agents.”
“Turnbacks” are defined as, “A subject who, after making an illegal entry into the US,
returns to the country from which he/she entered, not resulting in an apprehension or
gotaway.” Apprehension, gotaway, and turnback data is captured by Border Patrol agents
at the station level and entered into the following systems. Apprehensions are entered into
the e3 Processing (e3) system. All data entered via e3 resides in the Enforcement
Integrated Database (EID), the official system of record for this data. “Gotaways” and
“turnbacks” are entered into the CBP Enforcement Tracking System 1 (BPETS1).
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   DHS Component Liaison
   Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Office of National Drug Control Policy

   Associate Director for Planning and Budget

   U.S. Customs and Border Protection

   Commissioner
   Chief Financial Officer
   Audit Liaison

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �



www.oig.dhs.gov                                                            OIG-14-40
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
